                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 113060037                                                                     Page 1 of 1



         This investigation was initiated based on information obtained from the Office of Audits about
         suspicious purchases made by an NSF employee 1 using his government purchase card. Based on
         our review of the purchases and an interview with the employee's supervisor2, we referred the
         matter to the DOJ Public Integrity Section. We obtained and executed search warrants for the
         employee's residence and NSF workspace. During our interview, the employee admitted that he
         used the purchase card to make personal purchases, including cell phones, cell phone voice and
         data service, iTunes purchases, and various electronic devices and computing equipment for
         himself and family and friends.

         We determined that over the course of several years, the employee purchased $94,493 in items
         and services for personal use. Ofthe items seized from the employee's residence, NSF
         determined it could put equipment valued at $16,690 into circulation; therefore, the loss amount
         was reduced by $16,690.

         The employee pled guilty in federal district court to one count of theft of government property
         (18 USC§ 641). 3 He resigned from NSF, effective December 7, 2013, and forfeited his annual
         leave baiance of $1 0,263. Subsequently, he was sentenced to 10 months in prison followed by 3
         years of supervised release and ordered to pay restitution of $77,803.

         When informed that NSF was going to propose removal from federal service, the employee's
         supervisor retired effective March 31, 2014.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11/02)
                                                                                       Page 1 of 2 PageiD# 2




                             IN TIIF LNITED STATES DISTHICT COURT
                             HW TllF FASTER:\ DISTRICT OF VIRGINIA
                                      AtJ:XANDRIA DIVISION

t '~l'llJ) STATES 01 :\!\ 1EIUC:\
                                                                CH.l\111'.\L NO.

                                                                 IS USC        *6-fl
                                                                 I hdl r•f Ciun:nm1cnt Pwpcrty

                    Dt:l~ndant.




                                        C Rl :vll:\i\L 11'\H>R f\J ATl< Ji;i

       THE U''ITLD STAlES .\TTORNE\' CllAIHiJ:s THAT:

        I.   ,\t   all tim.::-. ma!cria! tu this   ~:riminal   information.                                          the



gon:mmcm      \)f   the lJnited Stale:>. and scncJ as an ln!!Hnwtion Technology CIT"! Specialist for

the NSF

                                   . In that position. . . wa~ i~sud a g<wcrnrncnt purchase card to

allow him w makt: autlwrizcd purchases to suppon his o!Tin: and mission rcquirt:mcnts.

        :2. From in or about 2010 through July 2013. in the Eastern District or Virginia. the

dd~ndant     did steal and nnncrt something of value belonging \n the United Staks fnr his cmn

us.:, \\ithout authority. and did sn willfully, knowingl::i. and with th~: intent to deprive the owner

11t. the u~c or benefit of the monc~. that is. the dci'endant used his                 governmt:m-f:...suc:d   purcha~t.:


cml tn purchast: items l11r his personal usc and th..: pcrs\mal use of nthers.

        On violation t1i l'itk 18. United States ('ih.,k.        S~.·ction   6-t 1.)
                                                           Page 2 of 2 PagelD# 3




Dana .1. Boentc                            Jack Smith
/\cting tJnhcd Stntcs Attorney             Chief. Public lnh:grity Section


          /'?     ---.   --7   d_
~lv~(r~y,@-fr:~----··
    ;\ssistant Unitcff.<.;tatcs Attorney
    21 no Jamieson A\CI1UC                     Trial Attorneys
    Alexandria, VA .2231-l                     Public !ntt:grit:· St:ction
    (703)299-3700                              United States Department of Justice
                                                                         Page 1 of 8 Pagel D# 6




                         IN TilE UNITED STATES DlS'fRJCr COURT
                        FOR THE. EASTERN DISTRICT OF VIRGINIA
                                    :\LEXANDRl:\ DIVISION

Ul\'JTED STi\ TES OF AJvlERICA                       )
                                                     )   CRil'vllNi\ L NO.
               v.
                                                         18 u.s.c. ~ 641
                                                         Thcfl or Government Property

               Defendant.



                                        PLEA AGREEi'vlENT

       Dana J. Bocntc. Acting United States Attorney ror the Eastern District of Virginia: :vlark

D. Lytle. Assistant United Stales Attorney: Jack Smith. Chid of the Public Integrity Section.

Lnited States Deparllnent of   Justi~.:c:   Kevin f)risco!L ·rrial Attorney. Public Integrity Section:

i'vlenaka Kalaskar. Trial Attorney. Public Integrity Section: the defendant.                     :and

the ddendant's counseL Judith Wlwat. have emercd imo an agreement pursuant to Ruk ll of the

Federal Rules of Criminal Procedure. The terms ofthe agreement ate as fi.1llows:

       1.      Offense and i\Iaximum Penalties

       The defendant agrees to waive indictment and plead guilty to a single-cnunl criminal

information charging the defendant \vith then of government property, In violation of Title IS.

United Staks Code, Section 641. The maximum penalties fiJr this offense arc a maximum term

of ten (I 0) years ofimprisonment, :.1 line of the greater   or $250.000.00 or twice the gross gain or
loss, Iiiii restitution, a special assessment and three years of supervised release. The defendant

understands that this supervised release term is in addition to any prison tenn the defendant may

receive, and that a vidation of a term of supervised release could result in the ddi.:ndant being

returned to prison lbr the filii term ofsupervist:d rdease.
                                                                        Page 2 of 8 PageiD# 7




       2.      Factual Basis for the Plea

       The defendant will plead guilty because the defendant is in fact guilty of the charged

offense. The defendant admits the facts set forth in the statement of facts filed with this plea

agreement and agrees that those facts establish guilt of the offense charged beyond a reasonable

doubt. The statement of facts, which is hereby incorporated into this plea agreement, constitutes

a stipulation of facts for purposes of Section I B 1.2(a) of the Sentencing Guidelines.

       3.      Assistance and Advice of Counsel

       The defendant is satisfied that the defendant's attorney has rendered effective assistance.

The defendant understands that by entering into this agreement, defendant surrenders certain

rights as provided in this agreement. The defendant understands that the rights of criminal

defendants include the following:

               a.      the right to plead not guilty and to persist in that plea;

               b.      the right to a jury trial;

               c.      the right to be represented by counsel - and if necessary have the court

                       appoint counsel- at trial and at every other stage of the proceedings; and

               d.      the right at trial to confront and cross-examine adverse witnesses, to be

                       protected from compelled self-incrimination, to testify and present

                       evidence, and to compel the attendance of witnesses.

       4.      Role of the Court and the Probation Office

       The defendant understands that the Court has jurisdiction and authority to impose any

sentence within the statutory maximum described above but that the Court will determine the

defendant's actual sentence in accordance with Title 18, United States Code, Section 3553(a).

The defendant understands that the Court has not yet determined a sentence and that any estimate



                                                    2
                                                                     Page 3 of 8 PageiD# 8




of the advisory sentencing range under the U.S. Sentencing Commission's Sentencing

Guidelines Manual the defendant may have received from the defendant's counsel, the United

States, or the Probation Office, is a prediction, not a promise, and is not binding on the United

States, the Probation Office, or the Court.      Additionally, pursuant to the Supreme Court's

decision in United States v. Booker, 543 U.S. 220, 125 S. Ct. 738 (2005), the Court, after

considering the factors set forth in Title 18, United States Code, Section 3553(a), may impose a

sentence above or below the advisory sentencing range, subject only to review by higher courts

for reasonableness. The United States makes no promise or representation concerning what

sentence the defendant will receive, and the defendant cannot withdraw a guilty plea based upon

the actual sentence.

       Further, in accordance with Rule II (c)( I )(B) of the Federal Rules of Criminal Procedure,

the United States and the defendant will recommend to the Court that the following provisions of

the Sentencing Guidelines apply:

                       Sentencing Guidelines Calculation Table                           Levels

BASE OFFENSE LEVEL, pursuant to U.S.S.G. § 2Bl.l{a)(2)                                      6

SPECIFIC       OFFENSE         CHARACTERISTIC,            pursuant    to    U.S.S.G.       +8
§ 2Bl.l(b)(l){E), value of Joss exceeded $70,000
ACCEPTANCE OF RESPONSIBILITY, pursuant to U.S.S.G. § 3El.l(a)                              -2

TOTAL OFFENSE LEVEL                                                                        12

TOTAL IMPRISONMENT RANGE at Criminal History Category I                                   10-16
                                                                                          mos.

       The Government agrees not to seek a 2-point upward adjustment pursuant to U.S.S.G.

§ 38 1.3, Abuse of Position of Trust or Use of Special Skill.




                                                 3
                                                                      Page 4 of 8 Pagel D# 9




         S.      Waiver of Appeal, FOIA, and Privacy Act Rights

         The defendant also understands that Title 18, United States Code, Section 3742 affords a

defendant the right to appeal the sentence imposed.        Nonetheless, the defendant knowingly

waives the right to appeal the conviction and any sentence within the statutory maximum

described above (or the manner in which that sentence was determined) on the grounds set forth

in Title 18, United States Code, Section 3742 or on any ground whatsoever, in exchange for the

concessions made by the United States in this plea agreement. This agreement does not affect

the rights or obligations of the United States as set forth in Title 18, United States Code, Section

3 742(b ).    The defendant also hereby waives all rights, whether asserted directly or by a

representative, to request or receive from any department or agency of the United States any

records pertaining to the investigation or prosecution of this case, including without limitation

any records that may be sought under the Freedom of Information Act, Title 5, United States

Code, Section 552, or the Privacy Act, Title 5, United States Code, Section 552a.

        6.       Special Assessment

         Before sentencing in this case, the defendant agrees to pay a mandatory special

assessment of one hundred dollars ($1 00.00) per count of conviction.

        7.       Payment of Monetary Penalties

        The defendant understands and agrees that, pursuant to Title 18, United States Code,

Section 3613, whatever monetary penalties are imposed by the Court will be due immediately

and subject to immediate enforcement by the United States as provided for in Section 3613.

Furthermore, within 14 days of a request, the defendant agrees to provide all of the defendant's

financial information to the United States and the Probation Office and, if requested, to



                                                 4
                                                                     Page 5 of 8 PageiD# 10




participate in a pre-sentencing debtor's examination and/or complete a financial statement under

penalty of perjury. lfthe Court imposes a schedule of payments, the defendant understands that

the schedule of payments is merely a minimum schedule of payments and not the only method,

nor a limitation on the methods, available to the United States to enforce the judgment. If the

defendant is incarcerated, the defendant agrees to participate in the Bureau of Prisons' Inmate

Financial Responsibility Program, regardless of whether the Court specifically directs

participation or imposes a schedule of payments.

        8.     Restitution

        Defendant agrees that restitution is mandatory pursuant to 18 U.S.C. § 3663A.

Defendant agrees to the entry of a Restitution Order for the full amount of the victims' losses.

Pursuant to 18 U.S.C. § 3663A(c)(2), the defendant agrees that an offense listed in

§ 3663A(c)( I) gave rise to this plea agreement and as such, victims of the conduct described in

the charging instrument, statement of facts or any related or similar conduct shall be entitled to

restitution.

        Without limiting the amount of restitution that the Court must impose, the defendant

agrees to a Restitution Order pursuant to 18 U.S.C. § 3663A(b)(I)(A) & (b)(l)(B). Under 18

U.S.C. § 3663A(b)( I )(A), the defendant agrees to a Restitution Order that orders the defendant to

relinquish to the National Science Foundation all electronics and electronic accessories seized

pursuant to the search warrants effected on defendant's residence and defendant's desk and work

area on July 19, 2013, as well as all electronics and electronic accessories returned voluntarily to

the National Science Foundation. The defendant agrees that this property lawfully belongs to the

National Science Foundation and agrees to hold the United States, its agents, and employees

hannless from any claims whatsoever in connection with the seizure and any Restitution Order.



                                                 5
                                                                      Page 6 of 8 PageiD# 11




The defendant warrants that he has not purported to provide or attempted to provide an

ownership interest in the property to any third party. The defendant further agrees that, pursuant

to 18 U.S.C. § 3663A(b)( I )(B), the return of the above property is inadequate in fulfilling the

defendant's full restitution obligation. The defendant agrees that the Restitution Order shall

therefore require the defendant to pay an additional $77,803.02 to the National Science

Foundation.

       9.      Immunity from Further Prosecution in this District

       The United States will not further criminally prosecute the defendant in the Eastern

District of Virginia for the specific conduct described in the information or statement of facts.

        10.    Breach of the Plea Agreement and Remedies

       This agreement is effective when signed by the defendant, the defendant's attorney, and

an attorney for the United States. The defendant agrees to entry of this plea agreement at the

date and time scheduled with the Court by the United States (in consultation with the defendant's

attorney). If the defendant withdraws from this agreement, or commits or attempts to commit

any additional federal, state or local crimes, or intentionally gives materially false, incomplete, or

misleading testimony or information, or otherwise violates any provision of this agreement, then:

               a.      The United States will be released from its obligations under this

                       agreement, including any obligation to seek a downward departure or a

                       reduction in sentence. The defendant, however, may not withdraw the

                       guilty plea entered pursuant to this agreement;

               b.      The defendant will be subject to prosecution for any federal criminal

                       violation, including, but not limited to, perjury and obstruction of justice,

                       that is not time-barred by the applicable statute of limitations on the date



                                                  6
                                                                  Page 7 of 8 PageiD# 12




                     this agreement is signed. Notwithstanding the subsequent expiration of

                     the statute of limitations, in any such prosecution, the defendant agrees to

                     waive any statute-of-limitations defense; and

              c.     Any prosecution, including the prosecution that is the subject of this

                     agreement, may be premised upon any information provided, or

                     statements made, by the defendant, and all such information, statements,

                     and leads derived therefrom may be used against the defendant.          The

                     defendant waives any right to claim that statements made before or after

                     the date of this agreement, including the statement of facts accompanying

                     this agreement or adopted by the defendant and any other statements made

                     pursuant to this or any other agreement with the United States, should be

                     excluded or suppressed under Fed. R. Evid. 410, Fed. R. Crim. P. ll(f),

                     the Sentencing Guidelines or any other provision of the Constitution or

                     federal law.

       Any alleged breach of this agreement by either party shall be determined by the Court in

an appropriate proceeding at which the defendant's disclosures and documentary evidence shall

be admissible and at which the moving party shall be required to establish a breach of the plea

agreement by a preponderance of the evidence.

       11.    Nature of the Agreement and Modifications

       This written agreement constitutes the complete plea agreement between the United

States, the defendant, and the defendant's counsel. The defendant and his attorney acknowledge

that no threats, promises, or representations have been made, nor agreements reached, other than

those set forth in writing in this plea agreement, to cause the defendant to plead guilty. Any



                                                7
                                                                                                                    Page 8 of 8 PageiD# 13




nwdilicatinn ofthis pka                              agn:em~nt   shall be valid l11lly as set forth in writing in a supplemcmal

dr revise{! pka agr..:cmcnt signed hy all parties.



Dana J. Bncmc                                                                   Jack Smith
Ading Unitt·d St<lles Attorney                                                  Chiet: Public Integrity Section



                                  ·o//4.                                        ''· .
                                                                                1.) \-
                                                                                          '--~~::;;.~
                                                                                                .f ,.
                                                                                                       , . ~;~>:C:,···················· )
                                                                                                              "tr::.x-~~:____-
                                                                                                      -------::,.--r              ---...~~-~--;-


    i'v1a rl' ..[.)-·.·· 1· •...:·····~·-~·-e-   z;;::r~·=                               ········:co-"'·,-;·············f'··;·j     · ·;··········--········~········
                                                                                         J-tjiv1h         Dris&tw
    Assist<lllt I :nitnl States Attorney                                                 tvknaka Kalask<lr
    ~ 100 .lamh:son Avenue                                                               Trial i\Honwys
    /\ Jc:xandria. V :\ 223l.f                                                           Public Integrity Section
    1703) 29Q-3 700                                                                      !Jnitcd Stales Department of Justice



         !klcndanfs Sivnatun:: I hereby agree !hat l have consulted with my attorney and fully
urllk·rstand n!l rights with respect to the pending information. Further. I full,:. understand all
rights \\ ith n:spect to ~fitk: J8. Unikd States Code, Section 3553 and th\.! provisions of tlw
Sentencing (iuidclines 1\1anual that may apply in my case. l have read this plea agreement and
can:ru!ly n.:vh:\vcd every part of ii \vith my atwrncy. I understand this agreen1cnt :md q;Juntarily
agrcL· ttl it.


            Dah:



            Ddcnsc Cmm5d Sh::nature: ! am counsel !()f thL· dcl~ndant in this case. I have fully
c:--.:plaincd to the ddembm the ddl::mlanrs rights with respect to the pending inlorrnation.
Funhcr. I have reviewed Title llL Lnitetl States Code. Section 3553 and the Sentencing
(iuiddin.:s !Vlamml. and J have fully explained to lhi: ddcndam the provisions thm may apply in
thi:.; .::;be. I han: carefully reviewed every p~tn nfth!s pka ogrectncrH with thi: dekndam. To my
kno\\ bJgc. the defendant's dccisk•n to enter into this agrecrw.:m is an inf\mued and vo!untar~
\l!1 c ~



                                                       J~,-/?1./)."
           Date:                                      _,,. . . .,_.. - L!l: . ~~ .
                                                      Judith WheaL E~q.
                                                      Counsel for the Ddcndant
